CERTIFICATE OF COMPLIANCE

(F.T.C.A.) Civil Suit No.

DANIEL LORING
Petitioner
v.

UNITED STATES
Respondent

As required by Supreme Court Rule 33.1(b), I Petitioner Daniel Loring certify
that this Petition for Extraordinary Writ of Certiorari contains 8975 words and 28
pages from OPINIONS BELOW through CONCLUSION with no exemptions.
In the Appendix, Petitioner listed 33 “contentions” that are Attachments and
Additional Factual Information of the Case to Support of this Petition for
Extraordinary Writ of Certiorari In the Supreme Court of the United States.
As per Court ORDER with the Covid Pandemic, Petitioner is submitting 1 copy
of the Petition for Extraordinary Writ of Certiorari with Appendix and Attached
“contentions” formatted on 8 XA x 11 printer paper and the copies of CERTIFICATE
PROOF OF SERVICE.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August

2021

Petitioner (Pro Se)
29

